         FEDERAL HOUSING FINANCE AGENCY
           OFFICE OF INSPECTOR GENERAL


     FHFA Should Develop and Implement a Risk-Based
     Plan to Monitor the Enterprises’ Oversight of Their
        Counterparties’ Compliance with Contractual
     Requirements Including Consumer Protection Laws




Audit Report: AUD-2013-008                        March 26, 2013
                                                 March 26, 2013


TO:               Jon D. Greenlee, Deputy Director for Enterprise Regulation


FROM:             Russell A. Rau, Deputy Inspector General for Audits


SUBJECT:          FHFA Should Develop and Implement a Risk-Based Plan to Monitor the
                  Enterprises’ Oversight of Their Counterparties’ Compliance with Contractual
                  Requirements Including Consumer Protection Laws
                  (Audit Report No. AUD-2013-008)

Summary

OIG assessed FHFA’s oversight of Fannie Mae’s and Freddie Mac’s (the Enterprises)
monitoring of their counterparties’ compliance with their contractual agreements, with an
emphasis on their compliance with federal consumer protection laws.1 Counterparties include
entities that sell mortgage loans to or service them for (e.g., collect payments for) the
Enterprises. When they work with the Enterprises, counterparties contract, among other things,
to follow federal and state laws that govern originating and servicing mortgage loans. However,
OIG found that FHFA does not thoroughly oversee how the Enterprises monitor counterparties’
contractual compliance. Specifically, FHFA does not examine how the Enterprises monitor
compliance with consumer protection laws, and, indeed, OIG determined that the Enterprises do
not ensure that their counterparties’ business practices follow all federal and state laws and
regulations designed to protect consumers from unlawful activities such as discrimination.

According to FHFA officials, it relies upon other federal regulatory agencies that are responsible
for enforcing laws that protect mortgage borrowers. For their part, the Enterprises actively focus
on counterparty compliance with these laws primarily where they may face legal liability for
their counterparties’ noncompliance (e.g., predatory lending). Otherwise, the Enterprises rely on
1
 The Enterprises’ counterparties’ obligations to abide by federal and state laws and regulations, such as consumer
protection laws, do not derive solely from their contracts with the Enterprises. These contracts merely reiterate the
counterparties’ existing legal obligations. Thus, OIG selected consumer protection laws for emphasis herein
because the Enterprises have no ability to waive the application of consumer protection laws and regulations,
whereas they freely can waive many other provisions of their contracts (e.g., underwriting standards). See OIG,
FHFA’s Oversight of Fannie Mae’s Single-Family Underwriting Standards (AUD-2012-003, March 22, 2012).

          Federal Housing Finance Agency Office of Inspector General • AUD-2013-008 • March 26, 2013
their counterparties’ self-certified compliance and informally monitor federal agencies’
enforcement activities.

Although OIG agrees that other federal agencies have regulatory and enforcement authority over
the Enterprises’ counterparties with respect to consumer protection laws, FHFA has a statutory
responsibility—under the Housing and Economic Recovery Act of 2008 (HERA)—to protect the
public interest, which in this instance is at least partially defined by federal and state consumer
protection laws. FHFA and the Enterprises, in connection with their recent changes to
representation and warranty relief procedures, demonstrated their awareness that they cannot
condone the purchase and ownership of loans originated in violation of federal and/or state law,
but they have not implemented adequate procedures to identify and refer for repurchase such
loans.

Therefore, we recommend that FHFA develop and implement a risk-based plan to assess the
Enterprises’ oversight of their counterparties’ compliance with their contractual obligations.
FHFA provided comments agreeing with the recommendation and stated that it would develop
a specific plan focused on the effectiveness of the Enterprises’ monitoring of the sellers’ and
servicers’ compliance with consumer protection laws under the existing contractual terms. See
Appendix A of this report for the complete text of the agency’s comments.

Background

Fannie Mae and Freddie Mac are housing government-sponsored enterprises that buy residential
mortgage loans to support the secondary mortgage market. From January through September
2012, Fannie Mae purchased for its mortgage portfolio or guaranteed approximately
$668 billion—measured by unpaid principal balance (UPB)—in loans.2 These activities enabled
Fannie Mae’s mortgage seller customers to finance approximately 2.8 million single-family
conventional loans and loans for approximately 371,000 units in multifamily properties. During
the same period, Freddie Mac purchased or guaranteed $296.6 billion in single-family
conforming mortgage loans.

HERA established FHFA as the Enterprises’ regulator to ensure their safety and soundness. In
September 2008, the federal government began investing taxpayer dollars—a total of
$187.5 billion through September 2012—in the Enterprises to prevent their insolvency.3 At the
same time, FHFA became the Enterprises’ conservator to oversee their activities and preserve
their assets. The agency is also required to ensure their activities are consistent with the public

2
 The $668 billion UPB figure includes $35.9 billion in loans that Fannie Mae repurchased out of its single-family
mortgage-backed securities trusts.
3
  FHFA, Data as of December 18, 2012, on Treasury and Federal Reserve Purchase Programs for GSE and
Mortgage-Related Securities, accessed January 17, 2013, available at
http://www.fhfa.gov/webfiles/24847/TSYSupport%202012-12-18.pdf

          Federal Housing Finance Agency Office of Inspector General • AUD-2013-008 • March 26, 2013
                                                         2
interest: “[t]he principal duties of the Director shall be ... to ensure that ... the activities of each
regulated entity and the manner in which such regulated entity is operated are consistent with the
public interest.”4

           Guidance Addressing Counterparties’ Contractual Compliance

Both Enterprises have written selling and servicing guides that their counterparties contractually
commit (i.e., represent and warrant) to follow.5 Among other things, the contractual agreements
and the guides require counterparties to comply with all federal and state laws and regulations—
including consumer protection statutes—applicable to originating, selling, and servicing
mortgage loans. If the Enterprises discover that a counterparty has not complied, then they can
require the original lender to repurchase noncompliant loans.

In September 2012, FHFA—in coordination with the Enterprises—introduced a new
representation and warranty framework aimed at clarifying lenders’ repurchase exposure and
liability on future deliveries of noncompliant loans.6 The framework relieved lenders of certain
repurchase obligations related to loans with acceptable payment histories. However, the
framework explicitly excluded lenders from such relief if they violated federal or state laws or
regulations. In its news release, FHFA explained, “[w]ith this new framework ... [i]nformation
about exclusions for rep[resentation] and warranty relief, such as violations of state, federal and
local laws and regulations will be detailed.”7 Clarifying FHFA’s news release, the Enterprises
provided guidance to their seller/servicers,8 notifying them of the framework and reinforcing the
role that sellers play in originating and delivering compliant mortgages. The guidance, among
other requirements, expressly states that—even where mortgages have acceptable payment
histories and other conditions and requirements have been met—mortgages that were not
originated in accordance with applicable laws and regulations are not eligible for representation
and warranty relief (i.e., they are indefinitely subject to repurchase). For example, Fannie Mae’s
guidance states:

           A lender will not be relieved from the enforcement of breaches of its
           representations and warranties on any mortgage loan, including eligible mortgage

4
    See 12 U.S.C. § 4513(a)(1)(B)(v).
5
 Fannie Mae 2012 Single-Family Selling Guide; Fannie Mae Single-Family 2011 Servicing Guide; and Freddie
Mac Single-Family Seller/Servicer Guide.
6
  See FHFA, Fannie Mae and Freddie Mac Launch New Representation and Warranty Framework, Increased
Transparency and Certainty for Lenders (September 11, 2012), accessed February 15, 2013, available at
http://www.fhfa.gov/webfiles/24366/Reps%20and%20Warrants%20Release%20and%20FAQ%20091112.pdf.
7
    Id.
8
 Fannie Mae, Selling Guide Announcement SEL-2012-08 (September 11, 2012); and Freddie Mac, Bulletin Number
2012-18 (September 11, 2012).

            Federal Housing Finance Agency Office of Inspector General • AUD-2013-008 • March 26, 2013
                                                        3
          loans, with respect to the following matters ... . With respect to each mortgage
          loan, a lender remains responsible for the life of the loan for representations and
          warranties related to ... [c]ompliance with [l]aws ... .

Similarly, Freddie Mac’s guidance advises, “[t]he [m]ortgage must comply with all applicable
federal, [s]tate and local laws, ordinances, regulations and orders, including without limitation,
[s]tate anti-predatory lending laws and regulations.” The new framework, thus, reinforces the
importance of contractual provisions related to compliance with laws and regulations, and the
Enterprises’ ability to pursue seller repurchase of loans originated in violation of consumer
protection laws.

          Consumer Protection Laws

Multiple federal consumer protection laws apply to residential mortgages. For example, entities
that originate mortgages must follow the Fair Housing Act, the Equal Credit Opportunity Act,
and the Truth-In-Lending Act. (Appendix D describes examples of these laws in more detail.)

Historically, federal banking regulators such as the Office of the Comptroller of the Currency
and the Federal Deposit Insurance Corporation enforced these laws. Recently, however, the new
Consumer Financial Protection Bureau (CFPB) has taken on much of this responsibility under
the Dodd-Frank Wall Street Reform and Consumer Protection Act (Dodd-Frank Act),9 enacted in
July 2010.10 As a result, federal regulators have begun to collaborate to protect consumers by
entering into agreements with CFPB to coordinate key aspects of supervision, such as sharing
information and avoiding contradictory directives.

FHFA officials have indicated that the agency is considering how to coordinate with other
regulators in light of its responsibility to make sure the Enterprises’ work is consistent with the
public interest.11 The agency, however, has not actively supervised the Enterprises’ oversight of
counterparties’ contractual compliance with federal consumer protection laws.




9
    Pub. Law No. 111-203.
10
   CFPB, Supervision and Examination Manual, version 2.0 (October 2012), accessed January 29, 2013, available at
http://files.consumerfinance.gov/f/201210_cfpb_supervision-and-examination-manual-v2.pdf.
11
   In fact, in response to the United States Government Accountability Office’s report, Mortgage Foreclosures,
Regulatory Oversight of Compliance with Servicemembers Civil Relief Act Has Been Limited (GAO-12-700, July
2012), FHFA’s Deputy Director for Enterprise Regulation agreed that increased information sharing among
supervisors of mortgage lending industry participants could assist in identifying potential compliance problems and
in some cases could improve the identification of Servicemembers Civil Relief Act violations.

           Federal Housing Finance Agency Office of Inspector General • AUD-2013-008 • March 26, 2013
                                                         4
        Enterprise Efforts to Monitor Compliance with Contractual Commitments Related to
        Laws and Regulations

According to Fannie Mae, it conducts a mortgage origination risk assessment of its lenders by
asking a series of questions that focus on contractual commitments related to compliance with
federal consumer protection laws and also informally monitors federal regulators’ websites for
information concerning legal violations by its counterparties. If a lender informs it of controls
that are not acceptable or if violations are discovered, the Enterprise can take action to require
the lender to implement appropriate procedures and controls or the Enterprise can suspend or
terminate its business relationship with the lender. However, Fannie Mae has no written
procedures governing how it monitors counterparties found to be in violation of laws or
regulations or how it will address such violations of counterparty contractual requirements.
Additionally, for at least 10 years, the Enterprise has taken no action as a direct result of any
federal regulator working with a lender to remediate violations. Otherwise, Fannie Mae’s review
of counterparty compliance with federal consumer protection laws focuses on cases where it may
be liable for its counterparties’ noncompliance.

Similarly, Freddie Mac’s oversight of contractual compliance with such statutes focuses on
its potential liability. In 2011, for example, Freddie Mac’s quality control review identified
approximately 50 loans that either had high costs or were missing anti-predatory lending
documents.12 The Enterprise is liable for certain violations of federal anti-predatory lending
laws, and so it required its counterparties to repurchase the loans. Additionally, Freddie Mac’s
Counterparty Operational Risk Evaluation team reviews controls over compliance with certain
areas of consumer protection laws to provide information about the effectiveness of
counterparties’ controls over mortgage operations and compliance with the Enterprise’s
requirements. Nonetheless, where its own liability is not at issue, Freddie Mac has no formal
monitoring program.

In summary, both Enterprises rely primarily on counterparty self-certifications of contractual
compliance along with federal regulators’ supervisory and enforcement activities.

Finding: FHFA Should Develop and Implement a Risk-Based Plan to Monitor the
         Enterprises’ Oversight of Their Counterparties’ Compliance with Contractual
         Requirements Including Consumer Protection Laws

FHFA has not actively overseen—through its examination program—how the Enterprises
monitor counterparty contractual compliance with federal and state laws that govern originating
and servicing mortgage loans, including consumer protection laws. Similarly, the Enterprises do
not have formal programs in place to review their counterparties’ compliance with these laws,
12
  According to Freddie Mac, its Quality Control team conducted 141,463 loan level reviews during 2011, of which
19,021 (13%) were compliance reviews.

         Federal Housing Finance Agency Office of Inspector General • AUD-2013-008 • March 26, 2013
                                                       5
except where the Enterprises face legal liability from a counterparty’s failure to comply (e.g.,
predatory lending).

The Enterprises’ counterparties commit to comply with federal, state, and local laws, such as fair
lending, equal credit opportunity, anti-discrimination, and borrower privacy laws. Also, the
Dodd-Frank Act forbids consumer financial product providers and servicers from acting unfairly,
deceptively, or abusively.

In spite of their counterparties’ commitments, the Enterprises do not review the loans they buy at
the time of purchase to assess whether consumers are being treated properly according to
applicable law. Instead, both Enterprises have noted that they generally rely on the
counterparties’ representations and warranties of compliance with consumer protection laws.
That is, because the Enterprises can require their counterparties to repurchase loans if they
discover violations, they concern themselves with compliance issues only when they may be
liable as a purchaser for noncompliance. Further, the Enterprises have indicated that it is not
their duty to monitor and enforce compliance with federal consumer protection laws because
there are federal regulatory agencies with these responsibilities.

For its part, FHFA has not performed any reviews specific to how the Enterprises monitor
counterparty compliance with contractual requirements related to federal consumer protection
laws and regulations. Additionally, the agency noted that its new supervisory examination
guidance that is under development does not explain how such reviews should be conducted.
Further, although FHFA’s new representations and warranty framework directs the Enterprises to
conduct reviews of compliance with their seller/servicer guides earlier in the process and to
evaluate loan files on a more comprehensive basis, more specific instruction to identify loans
with legal compliance issues is not included. Moreover, like the Enterprises, FHFA officials
asserted that they rely upon the efforts of other regulators.

FHFA is thus vulnerable to questions about why it does not have a strategy to monitor the
Enterprises’ activities to assess whether they are aligned with the public interest as reflected in
federal and state laws and regulations (e.g., consumer protection laws). FHFA and the
Enterprises recognized their shared responsibility for protecting the public interest when they
explicitly excluded violations of federal and state laws and regulations from the universe of
representation and warranty violations that may be forgiven after 36 months of on-time mortgage
payments. Yet, neither Enterprise has implemented procedures to identify and refer for
repurchase mortgages that were originated in violation of federal and/or state laws or regulations,
and FHFA has not instructed them to develop such procedures.

In addition, purchasing and owning mortgages that were originated in violation of federal and/or
state laws or regulations may subject the Enterprises to increased economic risk. For example,
the Enterprises buy mortgages that comply with their origination requirements, including

        Federal Housing Finance Agency Office of Inspector General • AUD-2013-008 • March 26, 2013
                                                    6
compliance with federal and state laws and regulations. If they determine that they have
purchased mortgages for which the sellers have inaccurately represented and warranted their
compliance with the Enterprises’ requirements, then they may require the sellers to repurchase
the mortgages. Accordingly, under the new representation and warranty framework, compliance
violations can be the sole basis to demand a seller repurchase a mortgage. The Enterprises’
failure to pursue seller repurchase demands related to mortgages in default with no material
underwriting deficiencies—but that were originated in violation of consumer protection laws—
may result in losses to the Enterprises that could be avoided or mitigated.

FHFA has begun to put together a plan to address its role in overseeing the Enterprises’ oversight
of their counterparties’ compliance with federal consumer protection laws. Recently, FHFA has
begun to take steps to work with federal regulators responsible for supervising and regulating
counterparties that sell mortgages to the Enterprises. For example, the agency has developed an
information-sharing agreement with regulators in the consumer financial market, such as the
Federal Reserve Board and the Office of the Comptroller of the Currency. In addition, agency
officials have met with specific regulators, such as the Federal Deposit Insurance Corporation.
FHFA is determining how best to coordinate with these agencies to further its mission, but has
not specifically addressed its role in monitoring the Enterprises’ oversight of their counterparties’
compliance with contractual provisions requiring adherence to consumer protection laws.

Going forward, such interagency coordination may be helpful in formulating a risk-based plan to
assess how the Enterprises monitor their counterparties’ contractual compliance with federal and
state laws generally and with consumer protection laws in particular.

OIG is planning targeted work related to two of the Enterprises’ largest seller/servicers to assess
these counterparties’ compliance with federal consumer protection laws. The results of this work
will help the agency refine its plan and focus on significant risks.

Recommendation

FHFA should develop a risk-based13 plan to monitor the Enterprises’ oversight of their
counterparties’ compliance with contractual representations and warranties, including those
related to federal consumer protection laws.




13
   In this context, “risk-based” connotes the avoidance of duplication of federal oversight efforts and the
implementation of cost-effective identification of noncompliant loans. For example, consistent with the public
interest, an element of FHFA’s plan could include detailed agreements with other federal regulators delineating what
roles FHFA and the Enterprises will play in the identification of loans originated in violation of consumer protection
laws and how violations will be communicated to the appropriate federal regulator.

          Federal Housing Finance Agency Office of Inspector General • AUD-2013-008 • March 26, 2013
                                                          7
Scope and Methodology

In order to accomplish our objective, we:

       •     Reviewed FHFA and Enterprise records.

       •     Interviewed FHFA personnel to identify the applicable federal consumer protection
             laws, and to understand and assess examination programs, policies, or procedures
             used to oversee the Enterprises’ compliance with these laws.

       •     Interviewed the Enterprises’ personnel to learn what they did to ensure counterparty
             compliance with consumer protection laws.

OIG conducted fieldwork for this performance audit from November 2012 through February
2013 in accordance with Generally Accepted Government Auditing Standards. Those standards
require that we plan and perform audits to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We believe that
the evidence obtained provides a reasonable basis for the finding and conclusions included
herein, based on our audit objective.

cc:    Richard Hornsby, Chief Operating Officer
       Sandra Thompson, Deputy Director for Housing Mission and Goals
       Nina Nichols, Deputy Director for Supervision Policy and Support
       Bruce Crandlemire, Senior Advisor for IG Operations

Attachments: Appendix A, FHFA’s Comments on the Finding and Recommendation
             Appendix B, OIG’s Response to FHFA’s Comments
             Appendix C, Summary of Management’s Comments on the Recommendation
             Appendix D, Examples of Consumer Protection Laws




           Federal Housing Finance Agency Office of Inspector General • AUD-2013-008 • March 26, 2013
                                                       8
Appendix A: FHFA’s Comments on the Finding and
Recommendation




     Federal Housing Finance Agency Office of Inspector General • AUD-2013-008 • March 26, 2013
                                                 9
Federal Housing Finance Agency Office of Inspector General • AUD-2013-008 • March 26, 2013
                                           10
Appendix B: OIG’s Response to FHFA’s Comments
FHFA provided comments to a draft of this report agreeing with our recommendation and
identifying specific actions it would take to address the recommendation. FHFA stated that it is
committed to the fair treatment of consumers and agreed to develop a specific plan focused on
the effectiveness of the Enterprises’ monitoring of seller/servicers’ compliance with consumer
laws and regulations. We consider the proposed actions sufficient to resolve the
recommendation, which will remain open until we determine that the agreed actions are
completed and responsive to the recommendation. Appendix C provides a summary of
management’s comments on the recommendation and the status of agreed corrective actions.




        Federal Housing Finance Agency Office of Inspector General • AUD-2013-008 • March 26, 2013
                                                   11
Appendix C: Summary of Management’s Comments on the
Recommendation
This table presents the management response to the recommendation in OIG’s report and its
status when the report was issued.

                                                         Expected                                        Open
    Rec.                                                Completion       Monetary       Resolved          or
    No.     Corrective Action: Taken or Planned            Date          Benefits       Yes or No       Closedb
     1.    Develop a specific plan focused on the        06/30/13            NA             Yes          Open
           effectiveness of the Enterprises’
           monitoring of sellers’ and servicers’
           compliance with consumer protection
           laws under the existing contractual
           terms.

a
 Resolved means: (1) management concurs with the recommendation, and the planned, ongoing, or completed
corrective action is consistent with the recommendation; (2) management does not concur with the recommendation,
but alternative action meets the intent of the recommendation; or (3) management agrees to the OIG monetary
benefits, a different amount, or no amount ($0). Monetary benefits are considered resolved as long as management
provides an amount.
b
  Once OIG determines that agreed-upon corrective actions have been completed and are responsive, the
recommendation can be closed.




           Federal Housing Finance Agency Office of Inspector General • AUD-2013-008 • March 26, 2013
                                                       12
Appendix D: Examples of Consumer Protection Laws


    Law or Regulation                                        Description
1   Electronic Signatures     Allows for electronic signatures and records to create legally binding
    in Global and National    documents. Accords these records and signatures the same validity as
    Commerce Act              handwritten records and signatures. Consent of the consumer to an
                              electronic signature must be obtained in a manner that reasonably goes to
                              the ability of the consumer to access the underlying disclosure.
2   Fair Credit Reporting     Protects information that bears on a consumer’s credit standing, credit
    Act                       capacity, character, general reputation, personal characteristics, or mode
                              of living. Restricts parties to whom the information can be provided to
                              those with a permissible purpose. Imposes duties on furnishers of
                              information regarding fraud alerts, investigating and correcting disputed
                              information, and providing disclosures regarding things such as adverse
                              actions and risk-based pricing. Includes provisions for disposing of
                              information from consumer reports.
3   Flood Disaster            Requires flood insurance coverage for properties in flood hazard areas.
    Protection Act
4   Truth-in-Lending Act      Promotes the informed use of consumer credit by requiring disclosures
                              about its terms and cost. Provides consumers the right to cancel certain
                              credit transactions that involve a lien on their principal dwelling. Imposes
                              certain advertising requirements. Establishes disclosure requirements on
                              certain home equity loans (including refinance transactions) with rates or
                              fees above a certain percentage or amount, and imposes restrictions on
                              certain loan terms and practices associated with abusive lending. The law
                              was amended in 2008 with additional consumer protections for higher
                              priced mortgage loans. The law also establishes requirements for
                              advertising consumer credit, establishes disclosure requirements for
                              reverse mortgage loans, and restricts loan originator compensation.
5   Helping Families Save     Amends the Truth-in-Lending Act to require that borrowers be notified
    Their Homes Act of        within 30 days of when their mortgage has been sold, transferred, or
    2009                      assigned.
6   Home Mortgage             Provides the public with information that will help show whether
    Disclosure Act            financial institutions serve the housing credit needs of the neighborhoods
                              and communities in which they are located. The law also requires
                              collecting data and disclosing applicant characteristics to identify possible
                              discriminatory lending patterns.
7   Home Owners               Provides for cancelling private mortgage insurance and requires lenders to
    Protection Act            provide disclosures to borrowers.
8   Home Ownership and        Combats abusive lending practices by imposing disclosure requirements
    Equity Protection Act     on home equity loans (including refinance transactions) bearing an annual
                              percentage rate or fees above a certain percentage or amount. Also,
                              imposes restrictions on certain loan terms and practices associated with
                              abusive lending practices.


        Federal Housing Finance Agency Office of Inspector General • AUD-2013-008 • March 26, 2013
                                                   13
     Law or Regulation                                       Description
9   Real Estate Settlement    Provides consumers with information about the nature and costs of the
    and Procedures Act        settlement process. Prohibits kickbacks and referral fees between
                              settlement service providers. Governs escrow accounts and certain
                              servicing-related activities, including borrower inquiries and servicing
                              transfer notices.
10 Fair and Accurate          Protects information collected by consumer reporting agencies such as
   Credit Transactions        credit bureaus. Requires lenders to provide risk-based pricing notices to
   Act                        consumers and opt-out notices for information sharing with affiliates for
                              marketing.
11 Equal Credit               Prohibits discrimination in granting credit and requires lender disclosure.
   Opportunity Act
12 The Secure and Fair        Requires that all states implement a system to license residential mortgage
   Enforcement for            loan originators according to national standards. Originators who work
   Mortgage Licensing         for an insured depository or subsidiary that is regulated by a federal
   Act of 2008                banking agency must be registered. All other mortgage loan originators
                              are state-licensed.
13 Servicemembers Civil       Prevents foreclosure while borrower is on active duty; also caps interest
   Relief Act                 rate at 6% for mortgage loans originated prior to borrower’s military
                              service.




        Federal Housing Finance Agency Office of Inspector General • AUD-2013-008 • March 26, 2013
                                                   14
Additional Information and Copies


For additional copies of this report:

      Call OIG at: (202) 730-0880

      Fax your request to: (202) 318-0239

      Visit our website at: www.fhfaoig.gov



To report alleged fraud, waste, abuse, mismanagement, or any other kind of criminal or
noncriminal misconduct relative to FHFA’s programs or operations:

      Call our Hotline at: (800) 793-7724

      Fax your written complaint to: (202) 318-0385

      Email us at: oighotline@fhfaoig.gov

      Write to us at:   FHFA Office of Inspector General
                         Attn: Office of Investigations – Hotline
                         400 7th Street, SW
                         Washington, DC 20024




        Federal Housing Finance Agency Office of Inspector General • AUD-2013-008 • March 26, 2013
                                                   15
